                 REVIEW OF PUBLIC BUILDINGS SERVICE’S
                PROCUREMENTS FOR CONTRACT SERVICES
                  WITH CONTRACT CONSULTANTS, INC.
                      USING CORPS OF ENGINEERS’
                      CONTRACT W9126G-04-D-0004
                   REPORT NUMBER A050186/P/7/R06002

                               DECEMBER 1, 2005




                                      Notice


This report has been prepared by and is the property of the Office of Audits, Office
of Inspector General. Copies of the report are provided to agency personnel for
official purposes only and should not be disseminated further. Agency officials
who receive requests to release this audit report to anyone outside of the General
Services Administration should refer the requestor to the Office of Inspector
General, Office of General Counsel –Freedom of Information Officer.
Date:    December 1, 2005


Reply to
Attn Of: Regional Inspector General for Auditing (JA-7)

Subject: Review of Public Buildings Service’s
         Procurements for Contract Services
         With Contract Consultants, Inc.
         Using Corps of Engineers’
         Contract W9126G-04-D-0004
         Report Number A050186/P/7/R06002

To:      Scott Armey
         Regional Administrator (7A)

Attn:    James S. Weller
         Assistant Regional Administrator
         Public Buildings Service (7P)

         This report presents the results of the Office of Inspector General’s review of two
         Public Buildings Service (PBS) procurements, valued at $75,105 and $43,625, for
         temporary professional and administrative services with Contract Consultants, Inc.
         (CCI). PBS ordered the services using the Corps of Engineers’ (COE) Indefinite
         Delivery Indefinite Quantity (IDIQ) contract, W9126G-04-D-0004, with CCI, a
         Section 8(a) vendor. The scope of the COE contract was to provide Temporary
         Professional and Administrative Services within the Southwestern Division
         Boundaries. The contract was awarded for a base year and four option years.
         The value of the contract was $600,000 per year and $3,000,000 for the 5 years.

         Objective, Scope, and Methodology

         The objective of the review was to determine if PBS’s procurements for temporary
         professional and administrative services from CCI obtained through the COE
         contract were acquired in accordance with Federal Acquisition Regulations (FAR)
         and in the best interest of the Government.
   To accomplish the objective, we:

   •   Reviewed the COE solicitation to CCI for an IDIQ contract for professional
       and administrative services.
   •   Reviewed CCI’s proposal in response to COE’s solicitation.
   •   Reviewed the IDIQ contract that was awarded to CCI by the COE to obtain
       an understanding of the contract scope.
   •   Reviewed applicable FAR relating to interagency procurements.
   •   Interviewed COE and General Services Administration (GSA) PBS officials
       to obtain an understanding of the procurement process for the two
       procurements.
   •   Reviewed other pertinent documentation relating to the IDIQ contract and
       the two procurements.

The review was conducted between May and August 2005, in accordance with
generally accepted Government auditing standards.

Results of Audit

PBS did not prepare a Determination and Finding (D&F) statement, as required by
FAR 17.503 and 17.504, for the two orders acquiring temporary professional and
administrative services through an interagency acquisition with the COE. As a
result, PBS may have used a contract vehicle that was not in the best interest of
the Government.

PBS entered into two Support Agreements with the COE to obtain a Design Quality
Assurance Consultant and a Program Analyst. In September 2004, PBS
formalized the first Support Agreement with the COE, retroactively effective to
August 8, 2004, to obtain a Design Quality Assurance Consultant. The COE
placed the order against their IDIQ contract with CCI on August 23, 2004. On
November 2, 2004, PBS entered into the second Support Agreement with the COE
to obtain a Program Analyst. The COE subsequently issued an order against
CCI’s IDIQ contract for the Program Analyst. According to the PBS project
managers and contracting officer, they were not aware of the FAR requirement that
a D&F statement was required for services obtained through an interagency
acquisition.

FAR 17.502 in part states:
       “The Economy Act authorizes agencies to enter into mutual
       agreements to obtain supplies or services by interagency
       acquisition.”




                                       2
                 REVIEW OF PUBLIC BUILDINGS SERVICE’S
                 PROCURMENTS FOR CONTRACT SERVICES
                   WITH CONTRACT CONSULTANTS, INC.
                      USING CORPS OF ENGINEERS’
                      CONTRACT W9126G-04-D-0004
                   REPORT NUMBER A050186/P/7/R06002


                            REPORT DISTRIBUTION


                                                        Copies
Commissioner, Public Buildings Service (P)                1

Regional Administrator, Greater Southwest Region (7A)     3

Chief, Audit Follow-up and Evaluation Branch (BECA)       1

Assistant Inspector General for Auditing (JA)             2

Regional Inspector General for Investigations (JI-7)      1




                                         A-1
